GR-40-98-005
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
Office of Community Oriented Policing Services
Grants to the Claiborne County, Tennessee, Sheriff's Department
GR-40-98-005
April 1998
 

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants
awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing
Services (COPS), to the Claiborne County, Tennessee, Sheriff's Department (CCSD). The CCSD
received a $42,997 grant (95-CF-WX-1084) to hire or rehire one additional sworn officer
under the Funding Accelerated for Small Towns (FAST) program, a $188,429 supplement to the
FAST grant to hire or rehire four additional officers under the Universal Hiring Program
(UHP), and an additional $188,429 supplement to the FAST grant to hire or rehire four
additional sworn officers. The purpose of the additional officers is to enhance community
policing efforts.
In brief, the CCSD violated some of the grant conditions. Specifically, the CCSD:


- Was reimbursed for $3,666 in salaries and fringe benefits above the amounts approved
    in the Financial Clearance Memoranda.
- Did not maintain time and attendance records in a manner to adequately support the
    officer's pay; therefore, related salaries and fringe benefits totaling $85,454 are
    unsupported.
- Submitted the Department Initial Report, due August 25, 1995, on February 9, 1996,
    168 days after the due date.




- Submitted three of the nine required Financial Status Reports (FSR) after the due
    dates. The reports for the quarters ended December 31, 1996, June 30, 1997, and 
September 30, 1997, were submitted 10, 22, and 11 days late, respectively. 
- Was not making a good faith effort to ensure retention of COPS funded officers beyond
    the grant period; therefore, we question $330,735, the remaining total of the FAST/UHP
    grants, as unallowable.


 
#####